           Office of Inspector General




July 26, 2004

WILLIAM ALMARAZ
MANAGER, LOS ANGELES DISTRICT

WINTON A. BURNETT
MANAGER, OAKLAND DISTRICT

SUBJECT:         Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses in
                 the Los Angeles and Oakland Performance Clusters (Pacific Area)
                 (Report Number HM-AR-04-011)

This report presents the results of our self-initiated audit of the Los Angeles and
Oakland Performance Clusters’ (Pacific Area) efforts to prevent accidents, injuries,
and illnesses (Project Number 03YG011LH002). The Postal Service combined the
San Jose and Oakland Performance Clusters on December 8, 2003, and renamed it
the Bay-Valley Performance Cluster. Our overall objective was to determine
whether the performance clusters were reducing the number of accidents, injuries,
and illnesses through prevention methods. This report is the fourth in a series of
7 reports we will issue on accident prevention initiatives in 6 areas and
12 performance clusters. The seventh report will address issues with nationwide
impact and will provide the results of our best practice review of safety issues.

The Los Angeles and Oakland Performance Clusters had implemented prevention
initiatives that have the potential to become best practices in reducing accidents,
injuries, and illnesses. However, we could not determine whether the prevention
initiatives reduced the number of accidents, injuries, and illnesses, or whether the
prevention initiatives were implemented in a timely manner.

Although both performance clusters were accumulating and analyzing accident,
injury, and illness data for prevention initiatives, the Human Resources Information
Systems and the Risk Management Reporting System are antiquated and will be
replaced. Finally, in all six facilities we visited in the Los Angeles and Oakland
Performance Clusters, the reporting processes facilitated accurate reporting of
accidents, injuries, and illnesses.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Suzanne F. Medvidovich
    John A. Rapp
    DeWitt O. Harris
    Alfred Iniguez
    Samuel M. Pulcrano
    Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                                   HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                 TABLE OF CONTENTS
Executive Summary                                                              i

Part I

Introduction                                                                   1

   Background                                                                  1
   Objectives, Scope, and Methodology                                          2
   Prior Audit Coverage                                                        3
     Management’s Comments                                                     3
     Evaluation of Management’s Comments                                       3

Part II

Audit Results                                                                  4

   Accident Prevention Initiatives                                             4
     Management’s Comments                                                     5

   Effectiveness and Timeliness of Prevention Initiatives                      5

   Accident Reporting Systems                                                  7

   Reporting Processes                                                         8
    Management’s Comments                                                      9

Appendix A. Abbreviations                                                     10

Appendix B. Scope and Methodology                                             11

Appendix C. Statistical Sampling and Projections for Review of Accident
            Reporting Processes in Los Angeles Performance Cluster            13

Appendix D. Statistical Sampling and Projections for Review of Accident
            Reporting Processes in Oakland Performance Cluster                16

Appendix E. Management’s Comments                                             19
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                  EXECUTIVE SUMMARY

    Introduction                 This report presents the results of our self-initiated audit to
                                 determine whether the Los Angeles and Oakland1
                                 Performance Clusters, located in the Pacific Area, were
                                 reducing the number of accidents, injuries, and illnesses
                                 through prevention initiatives.

    Results in Brief             The Los Angeles and Oakland Performance Clusters had
                                 implemented prevention initiatives that could become best
                                 practices in reducing accidents, injuries, and illnesses.
                                 However, we could not determine whether the prevention
                                 initiatives reduced the number of accidents, injuries, and
                                 illnesses, or whether the prevention initiatives were
                                 implemented in a timely manner. This occurred because
                                 the measurement tools in place did not allow safety
                                 personnel to track and monitor the effectiveness of specific
                                 prevention initiatives. Pacific Area management told us that
                                 as a result of the Office of Inspector General audit, they
                                 have started to track prevention initiatives for all their
                                 clusters, and were monitoring them for effectiveness.

                                 Although both performance clusters were accumulating and
                                 analyzing accident, injury, and illness data for prevention
                                 initiatives, the Human Resources Information Systems and
                                 the Risk Management Reporting System are antiquated and
                                 will be replaced.

                                 Postal Service Headquarter officials told us they were
                                 addressing these issues at the headquarters level. We will
                                 issue a summary report on the audit results for the six areas
                                 visited. In that report, we may make recommendations to
                                 the Senior Vice President, Human Resources, regarding the
                                 measurement tools and data systems.




1
  The Postal Service combined the San Jose and Oakland Performance Clusters on December 8, 2003, and
renamed it the Bay-Valley Performance Cluster.

                                                    i
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)



                               Finally, in all six facilities we visited in the Los Angeles and
                               Oakland Performance Clusters, the reporting processes
                               used within the various functional areas facilitated the
                               accurate reporting of accidents, injuries, and illnesses.

 Summary of                    Management comments were not required; however, the
 Management’s                  Human Resources Manager, Pacific Area and the Manager,
 Comments                      Oakland District provided comments. Pacific Area
                               management stated that regarding our statement that there
                               were no prior audits or reviews, the safety program
                               evaluations guides (PEG) in large offices look at various
                               elements discussed under the Objectives, Scope, and
                               Methodology section of the report. In addition, they stated
                               that Pacific Area Business Reviews and local performance
                               clusters’ accident review meetings address these issues on
                               a weekly or monthly basis. Management provided
                               examples for our review.

                               The Manager, Oakland District, stated the district
                               implemented programs/activities that they feel are best
                               practices. Management also stated the overall number of
                               accidents have been reduced, but it is too soon to
                               determine if there is a direct correlation between the best
                               practices activities and the improved performance.

                               Oakland management also stated they agree with
                               Appendix D and the percentages reflected there have
                               resulted in the district reviewing its existing reporting
                               protocols and standard operating procedures to improve
                               and reduce those percentages. Management’s comments,
                               in their entirety, are included in Appendix E of this report.

 Overall Evaluation of         We reviewed the PEG, business reviews, and minutes from
 Management’s                  accident review meetings, and found that while they
 Comments                      address many elements of a safety program, they are not
                               audits or reviews of accident prevention initiatives. In
                               addition, they do not address how initiatives have reduced
                               the number of accidents. As a result, we did not view them
                               as prior audit coverage related to our overall objective.




                                                ii
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                           INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety of
                                    Postal Service employees a priority, managing the
                                    associated costs and the loss of productivity in operations,
                                    and responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with the Occupational Safety
                                    and Health Administration (OSHA) standards.

                                    In its April 2002 Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it will implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $822 million between chargeback
                                    years 1997 and 2003.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses,4 for fiscal years
                                    (FYs) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses, such as, but not
limited to skin diseases, respiratory disorders, or poisoning.

                                                         1
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)


                                   Table 1. Comparison of Postal Service-wide Accidents and OSHA
                                            Injuries and Illnesses, FYs 2002 and 2003

                                             Category              FY 2002           FY 2003
                                     Motor Vehicle Accidents             23,404           23,100
                                     Non-Motor Vehicle                   99,195           93,251
                                     Accidents
                                     OSHA Injuries                       51,630           46,317
                                     OSHA Illnesses                       6,972             5,550
                                     Total Accident, Injury,     $1,652,449,865    $1,620,024,027
                                     and Illness Expenses

                                   Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                                   Postal Service Headquarters officials did not know
                                   specifically what was responsible for the reduction in
                                   accidents. They believed, however, it was the result of
                                   accident prevention initiatives.

                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of the accident
                                   prevention initiatives in the Postal Service’s Western New
                                   York and Baltimore Performance Clusters, located in the
                                   Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results. We conducted this audit to determine whether
                                   similar situations existed in the Los Angeles and Oakland5
                                   Performance Clusters. We did not audit the performance
                                   clusters’ overall safety programs. Our focus was on
                                   accident prevention initiatives at the locations we visited.

    Objectives, Scope,             Our overall objective was to determine whether the
    and Methodology                Los Angeles and Oakland Performance Clusters were
                                   reducing the number of accidents, injuries, and illnesses
                                   through prevention initiatives. Our four subobjectives were
                                   to determine whether:

                                       •       The number of accidents and injuries were
                                               declining as a result of corrections to unsafe
                                               working conditions and practices.6

                                       •       Corrective actions and/or prevention initiatives were
                                               made in a timely manner.
5
  The Postal Service combined the San Jose and Oakland Performance Clusters on December 8, 2003, and
renamed it the Bay-Valley Performance Cluster.
6
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.

                                                           2
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)



                                   •     Data were being accumulated and analyzed for
                                         prevention initiatives.

                                   •     Processes facilitated accurate reporting.

                                We discuss our scope and methodology in Appendix B.

 Prior Audit Coverage           In the Los Angeles and Oakland Performance Clusters, we
                                did not identify any prior audits or reviews related to the
                                objectives of this audit.

 Management’s                   Management comments were not required; however, the
 Comments                       Human Resources Manager, Pacific Area provided
                                comments. Management stated this section of the report
                                indicates a finding of no prior audits. Management stated
                                the safety program evaluations guide (PEG) in large offices
                                within the performance clusters look at various elements
                                discussed under the Objectives, Scope, and Methodology
                                section above. They also stated the Pacific Area Business
                                Reviews and local performance clusters’ accident review
                                meetings, teleconferences, and business reviews address
                                these issues on a weekly or monthly basis.

 Evaluation of                  We reviewed the PEG, business reviews, and minutes from
 Management’s                   accident review meetings, and found that while they
 Comments                       address many elements of a safety program, they are not
                                audits or reviews of accident prevention initiatives. In
                                addition, they do not address how initiatives have reduced
                                the number of accidents. As a result, we did not view them
                                as prior audit coverage related to our overall objective.




                                                3
Efforts to Prevent Accidents, Injuries,                                           HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                       AUDIT RESULTS
                               The Los Angeles and Oakland Performance Clusters had
                               implemented accident prevention initiatives. We could not
                               determine, however, whether the prevention initiatives were
                               reducing the number of accidents, injuries, and illnesses, or
                               whether the prevention initiatives were implemented in a
                               timely manner.

                               Although the performance clusters were accumulating and
                               analyzing accident, injury, and illness data in two different
                               automated systems, the systems are antiquated and will be
                               replaced. Further, the reporting processes used within the
                               various functional areas facilitated accurate reporting of
                               accidents, injuries, and illnesses.

 Accident Prevention           The Los Angeles and Oakland Performance Clusters’
 Initiatives                   prevention initiatives had the potential to become best
                               practices in reducing accidents, injuries, and illnesses.
                               These initiatives could also help other performance clusters
                               to enhance their safety programs. For example:

                                   •     The Pacific Area developed an action plan titled
                                         “Line of Sight” that identifies roles and
                                         responsibilities up and down the chain of command,
                                         which facilitates accurate reporting of accidents.
                                         The Pacific Area Human Resources Manager told
                                         us there is positive support for this action plan.

                                   •     The Los Angeles Performance Cluster instituted a
                                         standard operating procedure requiring that the
                                         District Manager be notified immediately (at any
                                         time) of all accidents. The District Manager’s
                                         immediate awareness of accidents helped to
                                         ensure that supervisors timely prepare accident
                                         reports and conduct accident investigations.

                                   •     The Oakland Performance Cluster established a
                                         Safety Compliance Office whose function is to
                                         ensure accident reporting processes are followed.
                                         The office provided a central source for guidance
                                         and instruction to all those involved in accident
                                         reporting.




                                                4
Efforts to Prevent Accidents, Injuries,                                             HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)



                                   •     The Oakland Performance Cluster used mapping
                                         software to identify problem sites for motor vehicle
                                         accidents by tracking accident locations and times.
                                         This software helped management make decisions
                                         that affect route and transportation changes.

 Management’s                  The Manager, Oakland District, stated the district
 Comments                      implemented programs/activities that were both area and
                               district driven that they believe are best practices.
                               Management also stated the overall number of accidents
                               has decreased, but it is too soon to determine if there is a
                               direct correlation between the implemented
                               programs/activities and the improved performance. They
                               said they are confident in the current progress of their
                               programs and the impact they are having in reducing the
                               number of accidents.

 Effectiveness and              For FY 2002 through accounting period 8 in FY 2003, we
 Timeliness of                  could not determine whether the Los Angeles and Oakland
 Prevention Initiatives         Performance Clusters were reducing the number of
                                accidents, injuries, and illnesses, through prevention
                                initiatives, or whether prevention initiatives were
                                implemented in a timely manner. We could not make this
                                determination because the measurement tools in place did
                                not allow safety personnel to:

                                   •   Track and monitor specific prevention initiatives.
                                   •   Document when initiatives were implemented.

                               Some categories of accidents (slips, trips, falls, and lifts)
                               had decreased in both performance clusters; however, the
                               reasons for the decreases could not be determined. District
                               safety personnel told us they did not think decreases in the
                               number of accidents were related to specific prevention
                               initiatives. In addition, they had not documented the
                               implementation dates.

                               Although both performance clusters had implemented
                               several accident prevention initiatives, their numbers and
                               frequency rates varied for OSHA injuries and illnesses, and
                               motor vehicle accidents. For FYs 2002 and 2003,
                               Los Angeles’ OSHA injury and illness numbers, accident




                                                 5
Efforts to Prevent Accidents, Injuries,                                                           HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                 frequency rates,7 and motor vehicle accident frequency
                                 rates decreased. However, motor vehicle accident numbers
                                 stayed about the same for the period. Oakland’s motor
                                 vehicle accident frequency rates also remained about the
                                 same, for the period. However, the cluster’s OSHA injury
                                 and illness and motor vehicle numbers, and OSHA injury
                                 and illness frequency rates decreased. The following table
                                 illustrates these changes.

                                 Table 2. OSHA Injury and Illness and Motor Vehicle Accident Numbers
                                          and Frequency Rates in the Los Angeles and Oakland
                                          Performance Clusters for FYs 2002 and 2003

                                     Performance
                                       Cluster               Numbers               Average Frequency Rates
                                                       FY 2002   FY 2003            FY 2002       FY 2003
                                   Los Angeles
                                   OSHA Injury              529            428            5.88           4.95
                                    and Illness
                                   Motor Vehicle            160            159           16.15          15.98
                                   Oakland
                                   OSHA Injury              830            593            9.04           6.73
                                     and Illness
                                   Motor Vehicle            271            256           15.60          15.69

                                 Source: Postal Service WebEIS.


                                 Postal Service policy8 states that safety personnel were
                                 responsible for developing and monitoring a comprehensive
                                 safety and health program and analyzing accident, injury,
                                 and illness data so they could advise management on
                                 corrective actions. Policy9 also requires installations to
                                 develop methods to identify program needs for accident
                                 preventions. In addition, policy10 requires supervisors to
                                 implement written programs and action plans, monitor
                                 employees’ safety performance, and prevent operational
                                 safety accidents.

                                 Without implementation dates and adequate measurement
                                 tools, the Postal Service does not have reasonable
                                 assurance that prevention initiatives help the performance
                                 clusters reduce the number of accidents, injuries, and
                                 illnesses. To follow prudent business practices, Postal


7
  OSHA injury and illness rates and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period. These rates provide measurements that make accident data comparable
between large and small facilities.
8
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
9
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
10
   Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.

                                                      6
Efforts to Prevent Accidents, Injuries,                                                     HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)



                                     Service managers should evaluate whether prevention
                                     initiatives are accomplishing their goal and whether the
                                     resources expended are justified.

                                     The Safety Manager, Pacific Area told us that as a result of
                                     the Office of Inspector General (OIG) audit, they have
                                     started to track prevention initiatives for all their clusters,
                                     and were monitoring them for effectiveness. Management
                                     stated that prior to the OIG’s audit, the area had required
                                     the clusters to track prevention initiatives; however, they did
                                     not monitor the clusters’ efforts.

                                     Headquarters officials told us the safety tool kit that safety
                                     managers use to assess their safety programs is being
                                     modified to include trend line charts to track prevention
                                     initiatives. The officials said the tool kit would also be
                                     modified to include a field for managers to enter the date
                                     initiatives are implemented. Therefore, we will address the
                                     need for tracking and monitoring initiatives in a separate
                                     report.11

 Accident Reporting                  Both the Los Angeles and Oakland Performance Clusters
 Systems                             were accumulating and analyzing accident, injury, and
                                     illness data in the Human Resources Information System
                                     (HRIS) and the Risk Management Reporting System
                                     (RMRS). However, headquarters personnel told us these
                                     systems are antiquated and will be replaced. Safety
                                     personnel at both performance clusters told us they either
                                     were not experiencing problems with the two systems, or
                                     were able to work around the problems.

                                     For example, the Los Angeles Performance Cluster
                                     developed a weekly Vision Report to analyze accident data
                                     from HRIS and RMRS. The report showed current accident
                                     rates by facility and each facility’s ranking in relation to other
                                     facilities within the cluster. Using accident data from HRIS
                                     and RMRS, the Oakland Performance Cluster utilized a
                                     mapping software program to analyze locations of motor
                                     vehicle accidents.

                                     Postal Service policy12 requires the safety offices
                                     responsible for facilities where accidents occurred to enter
                                     accident report information into HRIS. Postal Service
11
     We will issue a summary report on the audit results for the six areas visited.
12
     Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.

                                                           7
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                   policy13 also states that the analysis of accidents and
                                   injuries was vital to effective accident prevention programs,
                                   and required that management use reports and statistical
                                   analyses to identify and eliminate the principal causes of
                                   accidents and hazardous conditions. Postal Service
                                   policy14 further requires each business area that manages
                                   source data to identify an individual or organization that is
                                   responsible for developing standards and usage rules to
                                   ensure data integrity. The policy also states that the
                                   standards and rules must ensure that data was accurate,
                                   available, usable, and consistent with the data location and
                                   other business considerations.

                                   According to the Headquarters Program Manager,
                                   Information Technology, Human Resources Portfolio, the
                                   Postal Service has developed the Injury Compensation
                                   Performance Analysis System and a component of it will
                                   replace HRIS and RMRS. The Manager also stated that the
                                   system is scheduled for implementation late in calendar
                                   year 2004. We will address this issue in a separate report.

 Reporting Processes               In all six facilities we visited in the Los Angeles and Oakland
                                   Performance Clusters, the reporting processes used within
                                   the various functional areas facilitated accurate reporting of
                                   accidents, injuries, and illnesses.

                                   We used a statistical sample to project the accuracy of the
                                   Los Angeles and Oakland Performance Clusters data in the
                                   HRIS for FY 2002 and the first 11 accounting periods of
                                   FY 2003. We projected that almost all of the information on
                                   the accident reports for both performance clusters were
                                   contained in the system (see Appendices C and D).

                                   We also used a statistical sample to project the
                                   completeness of the Los Angeles and Oakland Performance
                                   Clusters accident report forms15 for the same period. We
                                   projected that almost all of the forms for both performance
                                   clusters, were complete (see Appendices C and D).




13
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
14
   Management Instruction, 860-2003-2 Administrative Support, March 6, 2003.
15
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it to be completed for all accidents, regardless of the extent of injury or amount of damage. This
included all first aid injury cases, both reportable and nonreportable.

                                                         8
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)



                                   Postal Service policy16 requires supervisors to fully
                                   complete the accident report, by including “preventive
                                   action” codes17 and descriptions of accident prevention
                                   efforts. The policy also requires managers to review each
                                   accident report for accuracy and conduct a follow-up
                                   assessment to ensure that action was taken to prevent
                                   similar occurrences. In addition, supervisors and managers
                                   are required to sign the report as proof they had reviewed it.
                                   Further, the policy18 requires that the safety officer enter the
                                   accident report information into HRIS.

                                   We believe the accident reporting processes were accurate
                                   because supervisors and managers had received the safety
                                   training required by the performance clusters and had
                                   communicated the accident reporting processes to
                                   employees through safety talks and posters.

 Management’s                      The Manager, Oakland District, stated they agree with
 Comments                          Appendix D. They stated the percentages reflected in
                                   items 1-3 in Appendix D resulted in the district reviewing its
                                   existing reporting protocols and standard operating
                                   procedures in order to improve and reduce those
                                   percentages. Management also stated the new processes
                                   in place have resulted in fewer discrepancies between the
                                   information on the accident report forms and the HRIS.




16
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003.
17
   Preventive action codes described the action taken to eliminate or reduce the accident cause(s) and prevent
similar accidents.
18
   Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.

                                                        9
Efforts to Prevent Accidents, Injuries,                         HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                          APPENDIX A. ABBREVIATIONS

FY              Fiscal Year
HRIS            Human Resources Information Systems
OSHA            Occupational Safety and Health Administration
OWCP            Office of Workers’ Compensation Programs
PEG             Program Evaluation Guide
RMRS            Risk Management Reporting System
WebEIS          Web-Enabled Enterprise Information System




                                                10
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                   APPENDIX B. SCOPE AND METHODOLOGY
Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness rates and accident frequency rates from FY 200219 through accounting period20 8 in FY 2003.21
The Los Angeles Performance Cluster average total OSHA injury and illness rates and accident
frequency rates were 5.7 percent and 11.1 percent, respectively. The Oakland Performance Cluster
average total OSHA injury and illness rates and accident frequency rates were 9.3 percent and
20.4 percent, respectively. The average total accident frequency rate of 11.1 percent in the Los
Angeles Performance Cluster meant that out of every 100 employees, an average of 11.1 had an
accident for that period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, and main post office). The Los Angeles facilities we
visited were the Los Angeles Processing and Distribution Center, the Los Angeles Airport Mail
Center, and the Bicentennial Station. The Oakland facilities we visited were the Oakland Processing
and Distribution Center, the San Francisco Bulk Mail Center, and the Oakland Main Post Office.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster we visited. In addition, we obtained accident numbers and accident
frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also obtained from
RMRS the accident frequency rates and OSHA injury and illness rates for FY 2002, and the first
eight accounting periods in FY 2003. We reviewed data from both WebEIS and RMRS to determine
whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how unsafe working conditions
and practices should be corrected in a timely manner. We reviewed documentation for corrective
actions and prevention initiatives implemented from FY 2002 through accounting period 11 in
FY 2003.22

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and PEG data
that were accumulated and analyzed for prevention initiatives from FYs 2002 and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries, and illnesses, we interviewed human resources, safety and health
program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention such as resources, training, accident and hazard
19
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
20
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
21
   The first eight accounting periods for FY 2003, began September 7, 2002, and ended April 18, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
22
   The first 11 accounting periods for FY 2003 began September 7, 2002, and ended July 11, 2003.

                                                       11
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

reporting, safety talks, and internal controls. In addition, we selected two statistical samples of
accidents, injuries, and illnesses entered into HRIS for FY 2002 and the first eight accounting periods
in FY 2003. We reviewed a sample of accident report forms for accuracy and completeness; and
reviewed a sample of accidents from HRIS to determine whether the information on the accident
reports was entered accurately. We did not analyze accident prevention forms for the purpose of
determining if the stated root causes and unsafe practices identified were accurate. (See
Appendices C and D for a discussion of the sampling and projection methodologies used.)

This audit was conducted from May 2003 through July 2004 in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data was sufficiently reliable to support the opinions and conclusions in this
report.




                                                  12
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                             APPENDIX C

     STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF
        ACCIDENT REPORTING PROCESSES IN LOS ANGELES
                    PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified random sample of
accidents listed in the database. The sample design allowed statistical projection of the number of
discrepancies between the database and the accident report forms on file. Existence of the
appropriate supporting forms was also tested using the sample.

Definition of the Audit Universe

The team defined the audit universe as the Los Angeles Customer Service District Office, the
Los Angeles Processing and Distribution Center, and the Los Angeles Airport Mail Center. The audit
universe of accidents for these locations consisted of 1,804 accidents, according to the HRIS
database for all of FY 2002 through accounting period 11 in FY 2003. The universe was obtained
on-site by requesting printed HRIS data from the safety manager responsible for the accident and
injury prevention program.

Sample Design and Modifications

The expected error rate was unknown. We believed it to be less than 50 percent in general but
possibly near 50 percent for at least one attribute considered. Therefore, we chose an expected
error rate of 40 percent for the sample size calculation. For projection of a two-sided interval
with +/- 7 percent precision at the 95 percent confidence level, our desired sample size was
approximately 165 accident report forms. We allocated the planned number into six strata by year in
each of the three locations: the customer service district office, the processing and distribution
center, and the airport mail center. We used interval sampling to obtain the sampled forms within
each stratum, with the random start for each stratum chosen using the “randbetween” function in
Microsoft Excel1 to assign random numbers to the individuals on the universe listing. (Because of the
use of interval sampling, which involves use of integers, the “planned” and the “actual” numbers of
items in the sample do not add to 165.)

                                                             Population       Sample Size         Sample Size
Stratum               Location                    FY           Size            (Planned)            (Actual)
   1             Customer Service                2002                747                 41                  40
   2             Customer Service                2003                556                 39                  42
   3         Processing and Distribution
                       Center                    2002                225                   21                     21
     4       Processing and Distribution
                       Center                    2003                169                  23                  23
     5           Airport Mail Center             2002                 67                  22                  22
     6           Airport Mail Center             2003                 40                  15                  16
    Total                                                          1,804                 161                 164



1
 Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.

                                                        13
Efforts to Prevent Accidents, Injuries,                                                        HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

To test the completeness and accuracy of the HRIS database, we tested two attributes:

    •   Did the accident number shown on the accident report form agree with the HRIS database?
    •   Did the accident date shown on the accident report form agree with the HRIS database?

For the completeness of the accident report forms, we tested three attributes:

    •   Was the supervisor’s signature on the accident report form?
    •   Was the safety officer’s signature on the accident report form?
    •   Was the preventive action code on the accident report form?

Statistical Projections of the Sample Data

For analysis of the sample results, we considered the interval sampling methodology to be equivalent
to random sampling. As described in Chapter 7 of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990, a systematic sample (also called interval sample or skip-step sample) is
equivalent to a random sample if the order of the items in the population is random relative to (or is
unrelated to) the occurrence of the factor being investigated. We considered that to be the case in
this review.

For the projection of the number of errors for each attribute, we observed that the sample items for
two of the attributes contained very low error rates. Because of extremely low occurrence rates, we
were not able to use the normal approximation to the binomial to calculate occurrence limits for these
attributes. Instead, we analyzed the upper occurrence limits for each sample using the cumulative
binomial methodology, as used in past General Accounting Office Financial Audit Manual work to
generate the table “Statistical Sampling Results Evaluation Table for Compliance Tests.” As planned,
we used a 5 percent risk of over-reliance (beta risk). The tabulated values for the upper occurrence
limits were adjusted by appropriate finite population correction factors because the universe sizes
were small.

For projection of the number of errors for attribute four with higher error rates, we were able to use
the normal approximation. The sample data were analyzed using the formulas for estimation of a
population proportion for a simple random sample and a stratified random sample, as described in
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1990.

Results

All projections were made to the audit universe of 1,804 accidents as described in the definition of the
audit universe.

1. Did the accident number shown on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
59 accident numbers on the accident report forms (4.25 percent) disagreed with the database. The
point estimate is that no accident numbers on the accident report forms (0 percent) disagreed with the
HRIS database.

2. Did the accident date shown on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
59 accident dates on the accident report forms (4.25 percent) disagreed with the database. The point
estimate is that no accident date on the accident report forms (0 percent) disagreed with the HRIS
database.




                                                    14
Efforts to Prevent Accidents, Injuries,                                                     HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

3. Was the supervisor’s signature on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
103 accident report forms (7.37 percent) lacked the supervisor’s signature. The point estimate is that
33 accident report forms (2.35 percent) did not contain the supervisor’s signature.

4. Was the safety officer’s signature on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
84 accident report forms (6.0 percent) were missing the safety officer’s signature. The point estimate
is that 16 accident report forms (1.17 percent) were missing the safety officer’s signature.

5. Was the preventive action code on the accident report forms?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
131 of the accident report forms (9.37 percent) lacked the preventive action code. The point estimate
is that 53 accident report forms (3.78 percent) lacked the preventive action code.




                                                  15
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                                           APPENDIX D

   STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF
        ACCIDENT REPORTING PROCESSES IN OAKLAND
                  PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified random sample. The
sample design allowed statistical projection of the number of discrepancies between the database
and the accident report forms on file. Existence of the appropriate supporting forms was also tested
using the sample.

Definition of the Audit Universe

The team defined the audit universe as the Oakland Customer Service District Office, the Oakland
Processing and Distribution Center, and the San Francisco Bulk Mail Center. The universe of
accidents for these locations consisted of 2,455 accidents, according to the HRIS database, for all of
FY 2002 through accounting period 11 of FY 2003. The universe was obtained on-site by requesting
printed HRIS data from the safety manager responsible for the accident and injury prevention
program.

Sample Design and Modifications

The expected error rate was unknown. We believed it to be less than 50 percent in general but
possibly near 50 percent for at least one attribute considered. Therefore, we chose an expected
error rate of 40 percent for the sample size calculation. For projection of a two-sided interval
with +/- 7 percent precision at the 95 percent confidence level, our desired sample size was
approximately 180 accidents. We allocated these into six strata by year in each of the three
locations: the customer service district office, the processing and distribution center, and the bulk mail
center. We used interval sampling to obtain the desired number of forms within each stratum, as
shown in the table below, with the random start for each stratum chosen using the “randbetween”
function in Microsoft Excel. (Because of the use of interval sampling, which involves use of integers,
only the “planned” number of items in the sample adds to 180.)

                                                         Population      Sample Size         Sample Size
 Stratum               Location              FY
                                                           Size           (Planned)            (Actual)
    1             Customer Service          2002                 869                34                  30
    2             Customer Service          2003                 724                33                  33
    3              Processing and           2002                 356                29                  27
                  Distribution Center
    4              Processing and           2003                 230                  31                 31
                  Distribution Center
   5               Bulk Mail Center         2002                 165                  26                 26
   6               Bulk Mail Center         2003                 111                  27                 26
  Total                                                        2,455                 180                173




                                                    16
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

To test the completeness and accuracy of the HRIS database, we tested nine attributes:

    •   Did the accident cause shown on the accident report form agree with the HRIS database?
    •   Did the pay location on the accident report form agree with the HRIS database?
    •   Did the labor distribution code and Functional Operations Number on the accident report form
        agree with the HRIS database?
    •   Did the activity code on the accident report form agree with the HRIS database?
    •   Did the type-of-accident code on the accident report form agree with the HRIS database?
    •   Did the accident-result code on the accident report form agree with the HRIS database?
    •   Did the work-location code on the accident report form agree with the HRIS database?
    •   Did the nature-of-injury code on the accident report form agree with the HRIS database?
    •   Did the injured body part code on the accident report form agree with the HRIS database?

For the completeness of the accident report forms, we tested two additional attributes:

    •   Was the preventive action code on the accident report form?
    •   Was the preventive action on the accident report form?

Statistical Projections of the Sample Data

For analysis of the sample results, we considered the interval sampling methodology to be equivalent
to random sampling. As described in Chapter 7 of Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, c.1990, a systematic sample (also called interval sample or skip-step sample) is
equivalent to a random sample whether the order of the items in the population is random relative to
(or is unrelated to) the occurrence of the factor being investigated. We considered that to be the case
in this review.

For projection of the number of errors for each attribute, we observed that the sampled items
contained very low error rates. Because of the extremely low occurrence rates, we were not able to
use the normal approximation to the binomial to calculate occurrence limits. Instead, we analyzed
the upper occurrence limits for each sample stratum using as a basis the cumulative binomial
methodology, as used in past General Accounting Office Financial Audit Manual work to generate the
table “Statistical Sampling Results Evaluation Table for Compliance Tests.” We used a 5 percent risk
of over-reliance (beta risk). In all cases, we achieved an uncertainty interval equal to or better than
seven percent (magnitude of achieved uncertainty interval ranged from 4.66 percent to 6.8 percent).
We also considered the subpopulation concept discussed in Chapter 11 of Elementary Survey
Sampling, Scheaffer, Mendenhall, and Ott, c.1990, to adjust for the sampled items found to be out of
the time scope of the audit.

Results

All projections were made to the audit universe of 2,455 accidents as described in the definition of the
audit universe.

1. Did the accident cause shown on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
214 causes on the accident report forms (6.46 percent) disagreed with the HRIS database. The point
estimate is that 45 causes on the accident report forms (1.37 percent) disagreed.




                                                   17
Efforts to Prevent Accidents, Injuries,                                                     HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

2. Did the pay location on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
443 pay locations (13.38 percent) disagreed. The point estimate is that 234 records (7.07 percent)
disagreed.

3. Did the labor distribution code and functional operations number on the accident report
form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
519 labor distribution codes and functional operations numbers (15.68 percent) disagreed. The point
estimate is that 293 labor distribution codes and functional operations numbers (8.84 percent)
disagreed.

4. Did the activity code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
203 activity codes (6.14 percent) disagreed. The point estimate is that 46 activity codes
(1.39 percent) disagreed.

5. Did the type-of-accident code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
288 type-of-accident codes (8.72 percent) disagreed. The point estimate is that 99 type-of-accident
codes (2.99 percent) disagreed.

6. Did the accident-result code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
231 accident-result codes (6.99 percent) disagreed. The point estimate is that 57 accident-result
codes (1.73 percent) disagreed.

7. Did the work-location code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
162 work-location codes (4.91 percent) disagreed. The point estimate is that eight work-location
codes (0.25 percent) disagreed.

8. Did the nature-of-injury code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
228 nature-of-injury codes (6.88 percent) disagreed. The point estimate is that 53 nature-of-injury
codes (1.61 percent) disagreed.

9. Did the injured body part code on the accident report form agree with the HRIS database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
215 injured body part codes (6.48 percent) disagreed. The point estimate is that 41 descriptions of
the body part injured (1.24 percent) disagreed.

10. Was the preventive action code on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
178 accident reports (5.37 percent) were missing the preventive action code. The point estimate is
that 22 accident reports (0.64 percent) were missing the preventive action code.

11. Was the preventive action on the accident report form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
314 accident reports (9.45 percent) were missing the preventive action. The point estimate is that
135 accident reports (4.07 percent) were missing the preventive action.




                                                  18
Efforts to Prevent Accidents, Injuries,              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)

                 APPENDIX E. MANAGEMENT’S COMMENTS




                                                19
Efforts to Prevent Accidents, Injuries,              HM-AR-04-011
 and Illnesses in the Los Angeles and Oakland
 Performance Clusters (Pacific Area)




                                                20
